No. 19-953
In the Supreme Court of the United States

CHARLES FARRAR,
Petitioner,
v.
STATE OF COLORADO, et al.
Respondents.

CERTIFICATE OF SERVICE

I, L. Andrew Cooper, a member of the Bar of the United States Supreme
Court, certify that on June 3, 2020, as required by Supreme Court Rule 29 and
pursuant to the U.S. Supreme Court Order entered April 15, 2020, caused the
foregoing RESPONDENTS’ BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI to be electronically filed with the Clerk of the U.S. Supreme Court, as
well as causing the original Brief to be delivered to said Clerk by depositing same
into the U.S. mail, in a properly addressed, first class postage paid envelope; and to
be served on Petitioner’s counsel of record electronically, as follows:

Catherine Emily Stetson
Hogan Lovells US LLP
555 13th Street, N.W.
Washington, DC 20004-1109
cate.stetson@hoganlovells.com
Counsel of Record for Petitioner

L. Andrew
Cooper

Digitally signed by L.
Andrew Cooper
Date: 2020.06.03
14:30:41 -06'00'

/s/ L. Andrew Cooper
L. ANDREW COOPER
Deputy Attorney General
Colorado Dept. of Law
1300 Broadway, 10th Floor
Denver, CO 80203
Andrew.Cooper@coag.gov
(720) 508-6465
Counsel of Record for Respondents

